WAIVER

Supreme Court of the United States

No. 20-692
Rosemary Webster, et al. ve Fresenius Medical Care Holdings, Inc.,
aka Fresenius Medical Care North
America
(Petitioners) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
t& Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

Tam a member of the Bar of the Supreme Court of the United States.

CO Iam not presently a member of the Bar of this Court. Should a response be requested,
the response wif be filed by-a Bar yeémbi

Signature

 

Date: __ December 8, 2020

David L. Schenberg
& Mr, OMs. O Mrs. O Miss

(Type or print) Name,
Firm__Ogletree, Deakins, Nash, Smoak & Stewart, P.C_
Address _7700 Bonhomme Avenue, Suite 650
City & State_Clayton, MO Zip _63105
Phone __ (314) 802-3935

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ge: Timothy Waire, Jr. Rosemary Webster Dennis Jefferson
2510 Zion Road 2120 Bransford Ave. 321 Gaywood Dr.
Columbia, TN 38401 Nashville, TN 37204 Nashville, Tn 37241
timothy.waire@icloud.com rosemary.webster72189@gmail.com dejefferson9$@hotmail.com

Obtain status of case on the docket. By phone at 202-479-8034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available,
